      Department of Homeland Security



      Department of Homeland Security Compliance
         with the Federal Acquisition Regulation
       Revisions on Proper Use and Management of
              Cost-Reimbursement Contracts




OIG-12-133                              September 2012

                        OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security
                              Washington, DC 20528 / www.oig.dhs.gov



                                      SEP 28 2012

MEMORANDUM FOR:              Nick Nayak
                             Chief Procurement Officer
                             Department of Homeland Security

FROM:                        Anne L. Richards
                             Assistant Inspector General for Audits

SUBJECT:                     DepartmentfoffHomelandfSecurityfCompliancefwithfthef
                             FederalfAcquisitionfRegulationfRevisionsfonfProperfUsefandf
                             ManagementfoffCost-ReimbursementfContractsff
ff
Attached for your action is our final report, DepartmentfoffHomelandfSecurityf
CompliancefwithfthefFederalfAcquisitionfRegulationfRevisionsfonfProperfUsefandf
ManagementfoffCost-ReimbursementfContracts.f We incorporated the formal comments
from the Office of the Chief Procurement Office in the final report.

The report contains two recommendations aimed at improving the Department’s use
and management of other than firm-fixed-price contracts. Your office concurred with
the recommendations. Based on information provided in your response to the draft
report, we consider the recommendations resolved. Once your office has fully
implemented the recommendations, please submit a formal closeout letter to us within
30 days so that we may close the recommendations. The memorandum should be
accompanied by evidence of completion of agreed-upon corrective actions.

Consistent with our responsibility under the InspectorfGeneralfAct, we are providing
copies of our report to appropriate congressional committees with oversight and
appropriation responsibility over the Department of Homeland Security. We will post
the report on our website for public dissemination.

Please call me with any questions, or your staff may contact John E. McCoy II, Deputy
Assistant Inspector General for Audits, at (202) 254-4100.

Attachment




                                               

                                        OFFICE OF INSPECTOR GENERAL
                                               Department of Homeland Security


   Table of Contents
   Executive Summary............................................................................................................. 1 


   Background ........................................................................................................................ 2 


   Results of Audit ................................................................................................................... 4 


              Contract-Type Selection Requirements .................................................................. 4 

              Assignment of Acquisition Workforce Resources................................................... 8 

              Recommendations ............................................................................................... 13 

              Management Comments and OIG Analysis ......................................................... 14 


   Appendixes
              Appendix A:          Objectives, Scope, and Methodology ............................................ 16 

              Appendix B:          Management Comments to the Draft Report ............................... 19 

              Appendix C:          Major Contributors to This Report ................................................ 22 

              Appendix D:          Report Distribution ........................................................................ 23 


   Abbreviations
              COR                   Contracting Officer Representative
              COTR                  Contracting Officer Technical Representative
              DCMA                  Defense Contract Management Agency
              DHS                   Department of Homeland Security
              FAC-COR               Federal Acquisition Certification for Contracting Officer
                                    Representative
              FAC-COTR              Federal Acquisition Certification for Contracting Officer Technical
                                    Representative
              FAR                   Federal Acquisition Regulation
              FY                    fiscal year
              OIG                   Office of Inspector General
              OMB                   Office of Management and Budget




www.oig.dhs.gov                                                                                                                OIG-12-133
                           OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Executive Summary
   Cost-reimbursement contracts and other non-firm-fixed price contracts provide limited
   incentive for contractors to control costs. In the past, these types of contracts have
   been used without appropriate justification or sufficient management and oversight.
   As a result, these contract vehicles pose a high risk for wasting or misusing taxpayer
   funds.

   Federal Acquisition Regulation Case 2008-030, Proper Use and Management of Cost
   Reimbursement Contracts, responded to Congressional and Presidential requirements to
   revise the Federal Acquisition Regulation to include guidance over the use and
   management of other than firm-fixed-price contracts, to include cost-reimbursement,
   time-and-material, and labor-hour. This case amended the Federal Acquisition
   Regulation to require documentation justifying the selection of contract type, and the
   assignment of acquisition workforce resources to support other-than-firm-fixed-price
   contracts. We reviewed the Department’s compliance with the Federal Acquisition
   Regulation Case 2008-030, to address a Congressional mandate in the Duncan Hunter
   National Defense Authorization Act for fiscal year 2009.

   The Department of Homeland Security (DHS) did not always comply with the revisions in
   the Federal Acquisition Regulation Case 2008-030, Proper Use and Management of Cost
   Reimbursement Contracts. DHS did not always document required information to justify
   the selection of other than firm-fixed-price contract-types and did not always assign
   acquisition workforce resources to manage other-than-firm-fixed-price contracts in
   accordance with the revisions. These conditions existed because DHS policies do not
   completely align with the Federal Acquisition Regulation Case requirements, or in some
   instances, because acquisition personnel did not comply with existing policies. As a
   result, DHS may not award or manage these contracts properly, increasing the risk
   associated with the procurement of goods and services.

   We made two recommendations intended to improve the Department’s use of other
   than firm-fixed-price contracts. DHS concurred with our recommendations and is taking
   steps to implement them.




www.oig.dhs.gov                               1                                     OIG-12-133
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


   Background
   In fiscal year (FY) 2010, Federal agencies collectively spent more than $535 billion
   through contracts to acquire goods and services in support of their missions. Agencies
   obligated more than 35 percent of this total using other than firm-fixed-price contracts.
   Due to their nature, other-than-firm-fixed-price contracts increase the risks of
   inefficiency and waste. With the United States facing increasing fiscal pressures, there is
   a growing need to ensure that Federal agencies make the most efficient and effective
   use of their resources. To address these concerns, both Congress and the
   Administration recently strengthened controls over the use and management of other
   than firm-fixed-price contracts.

   Contract-Type Selection

   The Federal Acquisition Regulation (FAR) identifies a wide selection of contract types
   available to the Government, including firm-fixed price, cost-reimbursement, and time­
   and-materials contracts. The objective is to select a contract-type that results in
   reasonable contractor risk and provides the contractor with the greatest incentive for
   economical performance.

   The FAR states that the firm-fixed-price contract provides for a price that is not subject
   to any adjustment on the basis of the contractor’s cost experience in performing the
   contract. Usually, the firm-fixed-price contract is the contract-type best suited for
   minimizing risk and maximizing value for the Government because it provides the
   contractor with the greatest incentive for economical performance. It also imposes the
   minimal administrative burden upon the contracting parties.

   While the firm-fixed-price contract is preferred, the Government may award an other
   than firm-fixed-price contract-type when uncertainties cannot be managed by the
   contractor within economically reasonable bounds. For example, the FAR allows the
   government to award:

       •	 Cost-reimbursement contracts when circumstances do not allow the agency to
          define its requirements sufficiently or when uncertainties involved in contract
          performance do not permit costs to be estimated with sufficient accuracy; and

       •	 Time-and-materials and labor-hours contracts only when it is impossible, at the
          time of placing the contract, to estimate accurately the extent or duration of the
          work or to anticipate costs with any reasonable degree of confidence.




www.oig.dhs.gov                                2	                                      OIG-12-133
                                 OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security

   These other than firm-fixed-price contract-types require the Government to absorb a
   greater portion of the risk up front, but they can help avoid costly contingencies that
   contractors would pass on to taxpayers if forced to offer their services on a fixed-price
   basis. Under cost-reimbursement contracts, the Government pays the contractor based
   on allowable incurred costs rather than the delivery of a completed product or service.
   Under time-and-materials contracts, the Government pays the contractor fixed hourly
   rates that include wages, overhead, general and administrative expenses, and profit;
   based on the number of labor hours billed by the contractor. These terms provide
   contractors with limited incentive to control costs. In the past, these types of contracts
   have been used without appropriate justification or sufficient management and
   oversight. Furthermore, these contract types increase the Government’s administration
   costs. Excessive reliance on other than firm-fixed-price contracts increases the risk that
   funds will not be properly safeguarded.

   In FY 2009, DHS obligated $2.53 billion (17.7 percent of all contracts) for cost-
   reimbursement contracts and $2.54 billion (17.8 percent of all contracts) for time-and­
   materials and labor-hour contracts. In FY 2010, DHS obligated $2.62 billion (19.3
   percent of all contracts) for cost-reimbursement contracts and $2.54 billion (18.7
   percent of all contracts) for time-and-materials and labor-hour contracts.

   Use and Management of Other Than Firm-Fixed-Price Contracts

   Recently, the Government has increased efforts to regulate the use and management of
   other than firm-fixed price contracts. Congress addressed cost-reimbursement
   contracts in section 864 of the Duncan Hunter National Defense Authorization Act for
   Fiscal Year 2009. Specifically, the Act required the FAR be revised to include guidance
   regarding 1) when and under what circumstances cost-reimbursement contracts are
   appropriate; 2) the acquisition plan 1 findings necessary to support a decision to use
   cost-reimbursement contracts; and 3) the acquisition workforce resources necessary to
   award and administer cost-reimbursement contracts. The Act also required each
   agency’s Inspector General to determine the agency’s compliance with the new
   requirements. Addressing similar themes, President Obama issued a Presidential
   Memorandum on Government Contracting on March 4, 2009, directing agencies to
   become more fiscally responsible in their contract actions and cut contract costs.
   Additionally, in July 2009, the Office of Management and Budget (OMB) directed
   agencies to reduce the use of high-risk contracts (i.e. cost-reimbursement, time-and­
   material, and labor-hour).

   1
    As defined by the Defense Acquisition University, an acquisition plan is a written document that
   addresses all technical, business, management, and other significant considerations that will control an
   acquisition.


www.oig.dhs.gov                                        3                                              OIG-12-133
                            OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security

   To implement the Act and the Presidential Memorandum, the Department of Defense,
   the General Services Administration, and the National Aeronautics and Space
   Administration jointly issued FAR Case 2008-030 interim rule (Proper Use and
   Management of Cost-Reimbursement Contracts) on March 16, 2011 with immediate
   implementation. FAR Case 2008-030 broadened the Act’s scope to include all other
   than firm-fixed-price contracts including time-and-material and labor-hour contracts,
   which share similar risks as cost-reimbursement contracts. It introduced requirements
   that fall into two broad categories: 1) acquisition planning and contract-type selection,
   and 2) assignment of acquisition workforce resources.

   On March 2, 2012, the regulators adopted the interim rule as final with a few minor
   revisions that did not change the substance of the interim rule’s requirements. The final
   rule became effective on April 2, 2012.


   Results of Audit

   DHS did not always comply with the revisions in FAR Case 2008-030 (FAR Case), Proper
   Use and Management of Cost Reimbursement Contracts. DHS did not always document
   required information to justify the selection of other than firm-fixed-price contract
   types, and did not always assign acquisition workforce resources to manage other than
   firm-fixed-price contracts in accordance with the revisions. This occurred because DHS
   policies do not completely align with the FAR Case requirements, or in some instances,
   because acquisition personnel did not comply with existing policies. As a result, DHS
   may not award or manage these contracts properly, increasing the risk associated with
   the procurement of goods and services.

           Contract-Type Selection Requirements

           DHS’ written acquisition plans did not always contain required contract-type
           selection information and contracting officers did not always ensure the
           adequacy of contractors’ accounting systems. This occurred because DHS policy
           does not completely align with the FAR or acquisition personnel (i.e. preparers
           and reviewers/approvers of the required documentation) did not comply with
           existing policies. As a result, DHS may not award or manage these contracts
           properly, increasing the risk associated with the procurement of goods and
           services.




www.oig.dhs.gov                                4                                       OIG-12-133
                                  OFFICE OF INSPECTOR GENERAL
                                       Department of Homeland Security

              DHS’ Acquisition Plans

              FAR Case 2008-030 requires agencies to develop written acquisition plans for
              other than firm-fixed-price contracts. These plans shall include specific
              information on why the particular contract-type was selected and be approved
              at least one level above the contracting officer. We reviewed a judgmental
              sample of 59 DHS other than firm-fixed price contracts with a total value of
              about $1.5 billion to evaluate DHS’ compliance with requirements.2 All 59 DHS
              other than firm-fixed-price contracts did not comply with these requirements as
              follows:

                  •	 The written acquisition plans for 29 of the 59 contracts in our sample did
                     not contain contract-type selection information.

                      The Homeland Security Acquisition Manual establishes different types of
                      written acquisition plans depending on the acquisition dollar thresholds.
                      The acquisition planner must develop a Formal Written Acquisition Plan
                      for acquisitions of $10 million or more. For acquisitions of less than $10
                      million, acquisition personnel must develop an Advance Acquisition Plan
                      or an Abbreviated Acquisition Plan if the acquisition contains sensitive
                      information. Both the Formal Written Acquisition Plan and the
                      Abbreviated Acquisition Plan require contract-type selection information
                      in accordance with FAR Case 2008-030. However, DHS policy does not
                      require such information to be included in the Advanced Acquisition Plan.

                      These 29 contracts required Advance Acquisition Plans and therefore did
                      not contain all the required contract-type discussions in FAR Case 2008­
                      030. For 15 of the 29 contracts, some information regarding contract-
                      type selection was included in the Determination and Findings document,
                      which have been required prior to the FAR Case to justify the selection of
                      time-and-materials and labor-hour contract-types. However,
                      Determinations and Findings are not required for all other than firm-
                      fixed-price contracts and they do not require FAR Case 2008-030’s
                      specific, targeted discussions and analyses. For example, Determinations
                      and Findings do not require discussions of:

                           o	 Government’s additional risk and the burden to manage the
                              contract-type selected;


   2
       Details about the selection methodology and sampled contracts are presented in Appendix A.


www.oig.dhs.gov                                         5	                                          OIG-12-133
                                 OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security

                         o	 Government resources necessary to plan for, award, and
                            administer the contract-type selected; and
                         o	 Actions planned to minimize the use of other than firm-fixed-price
                            contracts on future acquisitions for the same requirement and to
                            transition to firm-fixed price contracts to the maximum extent
                            possible for non-commercial time-and-materials and labor-hour
                            contracts.

                  •	 Twelve written acquisition plans, covering 27 of the 59 contracts in our
                     sample, contain some, but not all of the required contract-type selection
                     information as shown in table 1.

           Table 1: FAR Case 2008-030 Requirements of which Formal Written Acquisition
           Plans were Not Compliant (More than $10 million)


                                                                                         Acquisition
                                                                                                         % Not
                         FAR Case 2008-030 Requirement              FAR Reference         Plans Not
                                                                                                       Compliant
                                                                                         Compliant

                       Explain how additional risks of
                                                               16.103(d)(1)(ii)(A)        10 of 12       83%
                       the contract-type were identified
                       Discuss plans to transition to
                       firm-fixed-price contracting for
                                                               16.103(d)(1)(iv)(D)        9 of 12        75%
                       future acquisitions of the same
                       requirement
                       Discuss the additional risk of
                       contract type and how the risks         16.103(d)(1)(ii)(B),(C)    9 of 12        75%
                       would be mitigated
                       Analyze facts and reasoning
                       supporting the selection of the         16.103(d)(1)(iv)(A),(B)    5 of 12        42%
                       contract-type
                       Explain fee provision, if
                                                               16.103(d)(1)(v)             4 of 4       100%
                       applicable
                       Approval one level above the
                                                               7.103(j)                   3 of 12        25%
                       contracting officer
                       Assess the government
                       resources needed to plan, award,
                                                               16.103(d)(1)(iv)(C)        3 of 12        25%
                       and administer the contract-type
                       selected
                      Source: DHS OIG.

                     The plans we reviewed were formal written acquisition plans covering
                     acquisitions of $10 million or more. The Homeland Security Acquisition


www.oig.dhs.gov                                           6	                                           OIG-12-133
                                OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security

                      Manual issued by DHS Office of the Chief Procurement Officer required
                      contract-type selection information in the formal acquisition plan prior to
                      the FAR Case. For the most part, this information met the FAR Case
                      requirements. DHS expanded its existing policy in June 2011 to include
                      FAR Case provisions not previously covered.
                      Nine of the twelve plans were approved one level above the contracting
                      officer. However, the documented contract-type selection information
                      did not include all required FAR Case requirements. We concluded that
                      approving officials did not ensure these required elements were included
                      prior to approving the plans.

                  •   3 of the 59 contracts did not have a written plan.

                      The contracting officer assigned to these 3 contracts said there was no
                      formal written acquisition plan for these contracts because they were
                      “bridge” contracts to continue the performance of the existing contracts
                      until the follow-on contracts were awarded.

           Adequacy of Contractor’s Accounting System

           FAR Case requires that prior to agreeing on an other than firm-fixed-price
           contract type, the contracting officer shall ensure that the contractor’s
           accounting system will permit timely development of all necessary cost data in
           the form required by the proposed contract type. We reviewed 13 or 100
           percent of the cost-reimbursement contracts in our sample of 59 contracts, and
           for 6 (46.2 percent) of these the contracting officer did not properly ensure the
           adequacy of the contractors’ accounting system.

           For one contract, the contracting officer used a Defense Contract Management
           Agency (DCMA) letter as evidence of the contractor’s accounting system
           validation. The letter stated that DCMA’s approval of the contractor’s
           accounting system was contingent on verification of the effectiveness of
           corrective actions implemented for deficiencies noted. The contracting officer
           did not demonstrate adequate consideration of the issue by documenting the
           accounting system deficiencies as an additional risk of selecting a cost-
           reimbursement contract and identifying contract monitoring activities to
           mitigate the risk, as required by the FAR.

           The evidence supporting the validation of the accounting system for another
           cost-reimbursement contract was based on a checklist completed by the
           contractor as opposed to a third party. The contracting officer relied on the


www.oig.dhs.gov                                    7                                      OIG-12-133
                            OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security

           contractor’s self-assessment and did not seek any additional information on the
           adequacy of the accounting system before awarding the contract.

           Furthermore, the contracting officers for three additional contracts confirmed
           they did not ensure the adequacy of the contractors’ accounting systems. For
           one of these contracts, the contracting officer said he erroneously omitted the
           evaluation. Another contracting officer, responsible for two of these contracts,
           said he did not ensure the adequacy of the contractor’s accounting system
           because of extreme time pressure. For the last of the seven contracts, we found
           no evidence of the validation of the contractor’s accounting system in the file
           and the contracting officers provided no explanation for this lapse.

           The adequacy of the contractor’s accounting system affects the quality and
           validity of the contractor data upon which the Government must rely for its
           oversight of the contractor and contract performance. By not ensuring the
           adequacy of contractors’ accounting systems, DHS may reimburse contractors
           for unallowable costs.

           Assignment of Acquisition Workforce Resources

           DHS did not always designate Contracting Officer Representatives (COR) prior to
           contract awards. DHS’ CORs were not always properly certified or qualified by
           training and experience, and were not always nominated by the requirements
           officials. Also, DHS’ COR designation letters did not always include all the
           elements required by FAR Case. For example, some designation letters did not
           specify the period covered by the designation, or that the COR may be personally
           liable for unauthorized acts. This occurred because DHS’ acquisition workforce
           policies are inconsistent—both internally and with FAR Case — and DHS’
           acquisition personnel did not always comply with existing policies. Not properly
           designating resources to oversee and support other than firm-fixed-price
           contracts increases the risk that funds will not be properly safeguarded. DHS
           needs to improve controls to ensure timely assignment of adequate and proper
           resources to support the award and administration of other than firm-fixed-price
           contracts.

           COR Nomination by Requirements Officials

           FAR Case requires the acquisition planner to ensure that the requirements
           official, responsible for identifying, developing and/or managing the acquisition
           requirement, nominates a COR as early as practicable in the acquisition process.
           Current DHS procedures require a COR nomination package to be included with


www.oig.dhs.gov                                8                                      OIG-12-133
                                 OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security

           the procurement request, but does not explain what shall be included in the
           nomination package. Some components have created forms and procedures
           specifying what will be included with the nominations, while others have not yet
           developed or updated their procedures.

           Twenty-three (40 percent) 3 of 59 contracts in our sample, did not have COR
           nomination packages and/or evidence of the CORs’ nomination by the
           requirements official. CORs should be selected based on nomination packages
           by the requirements official demonstrating the COR’s certification level, training,
           and experience. This process facilitates the timely appointment of a properly
           certified COR with the training and experience commensurate with the
           responsibilities and helps ensure that the COR will have the tools needed to
           perform his assigned duties.

           COR Designation Prior to Contract Award

           CORs are qualified individuals designated and authorized by the contracting
           officer to assist in the technical monitoring and administration of the contract.
           For other than firm-fixed-price contracts, FAR Case requires agencies to
           designate and authorize in writing a properly trained COR prior to contract
           award. Additionally, the FAR Case states involvement of the program office at
           the early stages of the acquisition facilitates proper contract management and
           oversight, especially for other than firm-fixed-price contracts.

           Twenty-four (41 percent)3 of 59 contracts in our sample, did not have CORs
           designated in writing prior to contract award. DHS designated a COR after
           contract award for 23 of these 24 contracts. Sixty-eight was the average number
           of days between contract award and COR designation. In two cases, DHS
           designated the COR after our review identified that a COR was not assigned.
           Additionally, one contract did not have a COR designated before the contract
           was cancelled.

           DHS Acquisition Workforce Policy, which existed prior to the FAR changes, stated
           that appointing a COR early in the definition phase of the requirement was
           “desirable.” DHS issued new procedures on the required timing of COR
           designations in its COR Essential Elements Guidebook in September 2011, 6
           months after the FAR changes. The COR Guidebook, which is still in place,

   3
    Percentage is based on our review of 58 contracts. The contracting officer for one of the 59 contracts in
   our review retained contracting officer representative’s duties, as allowed by the FAR Case. Therefore,
   this contract was not reviewed for this provision.


www.oig.dhs.gov                                        9                                              OIG-12-133
                                  OFFICE OF INSPECTOR GENERAL
                                       Department of Homeland Security

              requires DHS’ contracting officers to designate CORs “upon” contract award. In
              addition, on January 30, 2012, DHS revised its Acquisition Workforce Policy,
              stating that the contracting officer “should” appoint a COR early in the contract
              definition phase of the requirement for all contracts. However, the policy did
              not provide a specific mandate requiring the appointment of a COR prior to
              contract award for other than firm-fixed-price contracts.

              COR Certification, Training, and Experience

              FAR Case requires the contracting officer to designate and authorize a COR who:
              (a) is certified and maintains certification in accordance with the Office of
              Management and Budget (OMB) memorandum titled “The Federal Acquisition
              Certification for Contracting Officer Technical Representative” (FAC-COTR) dated
              November 26, 2007; and (b) is qualified by training and experience
              commensurate with the responsibilities to be delegated in accordance with
              department/agency guidelines. Subsequent to the FAR Case, the FAC-COTR
              memorandum was superseded by a new OMB memorandum “The Federal
              Acquisition Certification for Contracting Officer Representative” (FAC-COR)
              issued on September 6, 2011 with an implementation date of January 1, 2012.4

                  •	 Federal Acquisition Certification for Contracting Officer Technical
                     Representative

                      The FAC-COTR required 40 hours of training before an individual is
                      certified as a COR. To maintain certification, the COR needed to earn 40
                      continuous learning points every 2 years. Thirty-seven of the 59
                      contracts in our sample had a COR assigned prior to January 1, 2012; and
                      of these, all were certified in accordance with OMB FAC-COTR
                      memorandum.

                  •	 The Federal Acquisition Certification for Contracting Officer
                     Representative

                      OMB’s revised memorandum, effective January 1, 2012, established a
                      three-tiered certification, with each tier requiring a different level of
                      training and experience. The memorandum included a COR Appointment
                      Criteria Matrix to help contracting officers select a COR with the
                      appropriate level of training and experience. It stated that one risk factor
                      to consider when selecting a COR is contract-type and listed other than

   4
       The term “COTR” changed to “COR” to align with the FAR.


www.oig.dhs.gov                                       10	                                  OIG-12-133
                                OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security

                    firm-fixed-price contract types as a significant or high risk. The
                    memorandum invited agencies to add criteria to the matrix as
                    appropriate for their situations and gave agencies the option to
                    “grandfather” COTRs in as Level II CORs. The policy required agencies to
                    develop guidance to ensure their CORs were FAC-COR certified.

                    On January 30, 2012, DHS developed its risk-based COR certification level
                    program in its Acquisition Workforce Policy. This policy provided the
                    minimum mandatory training for FAC-COR certification at DHS. The policy
                    requires the appointed COR to have a Level III FAC-COR for high-risk
                    contracts. This rule applies to existing and new contracts. For existing
                    contracts, contracting officers were required to reappoint the CORs after
                    ensuring they were certified at a Level III. Appointment letters for both
                    reappointments and new appointments need to indicate the required
                    and current level of COR certification. Additionally, the revised
                    Acquisition Workforce Policy requires the appointed COR to have
                    appropriate and current certification at the time of appointment.

                    We reviewed the certification and appointment letters for CORs
                    appointed before and after January 1, 2012.5 The CORs appointed to
                    these contracts were not in compliance with the DHS policy established
                    to meet the OMB FAC-COR certification requirements as follows:

                        o	 The appointment letters for all contracts did not indicate the
                           required and/or current COR certification level. DHS requires
                           acquisition personnel to use an appointment letter template
                           included in DHS’ Homeland Security Acquisition Manual when
                           designating a COR; however, this template has not yet been
                           updated to include the COR certification level requirement.
                        o	 Only the CORs appointed to six contracts were certified at a Level
                           III. We talked to selected contract acquisition personnel for these
                           contracts and they said that they were not aware of the
                           requirement for Level III.
                        o	 At the time of our review, none of the CORs appointed prior to
                           January 2012 had been reappointed (37 contracts in our sample).
                        o	 The certification for 2 of the 18 CORs appointed after January 1,
                           2012, had expired prior to their appointment. For the first
                           contract that did not have a properly certified COR, we identified

   5
    At the time of our review, a COR had not been appointed to four contracts in our sample. Therefore,
   these four contracts were not reviewed and this reduced our sample size for this section to 55.


www.oig.dhs.gov                                      11	                                            OIG-12-133
                               OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security

                             that the certification had expired 4½ months before appointment.
                             Based on our conversation with the COR’s supervisor 6 months
                             after appointment, the COR was still trying to complete required
                             hours to maintain certification. As a result of our review, a new
                             properly certified COR was appointed to the contract.

                             The certification for the COR appointed to the second contract
                             had expired 7 months prior to appointment. Based on our
                             conversation with the COR and the component’s acquisition
                             specialist, they believed that the training requirement was for
                             every 4 years instead of every 2 years. This COR was assigned to
                             the contract for 4 months without proper certification. As a result
                             of our inquiry, this COR obtained the required hours.

           As stated in the OMB FAC-COR memorandum, strengthening the acquisition
           workforce is critical to ensuring that the Government gets the best value for the
           goods and services it procures annually. Appointing a properly trained and
           experienced COR will help ensure that payment is only made to contractors who
           perform in accordance with contract terms and conditions, and that contract
           performance will address program needs.

           COR Designation Letters

           For all other than firm-fixed-price contracts, FAR Case requires the contracting
           officer to designate a COR in writing with copies furnished to the contractor and
           the contract administration office. The written designation shall:

                  •	 Specify the extent of the COR’s authority to act on behalf of the 

                     contracting officer;

                  •	 Identify the limitations of the COR’s authority;
                  •	 Specify the period covered by the designation;
                  •	 State that the authority is not re-delegable; and
                  •	 State that the COR may be personally liable for unauthorized acts.

           On April 6, 2011, DHS issued a COR designation letter template that addresses
           each of the required elements in its Homeland Security Acquisition Manual. DHS
           requires acquisition personnel to use this template when preparing COR
           appointment letters to ensure format consistency across DHS.




www.oig.dhs.gov                                   12	                                      OIG-12-133
                             OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security

           In most instances, DHS ensured that its COR designation letters complied with
           FAR Case. Of the 55 COR designation letters reviewed, 6 (10.9 percent) did not
           contain all the required elements in the FAR Case. Of these 6 letters, one did not
           state that the COR’s authority is not re-delegable, while another did not state
           that the COR may be personally liable for unauthorized acts. Three more letters
           did not include either of these two requirements. One designation letter only
           included the period covered by the designation. Contracting Officers did not
           prepare these letters using the COR designation letter template in the Homeland
           Security Acquisition Manual.

           A designation letter that complies with the FAR requirements is important for
           ensuring that the COR understands the responsibilities and limitations of the
           COR designation. Not understanding the COR authority could lead to
           unauthorized commitments and contractual and legal disputes with the
           contractor.

           Conclusion

           DHS did not always comply with the requirements in the FAR Case for the proper
           use and management of other-than-firm-fixed-price contracts. DHS written
           acquisition plans did not always contain all required information justifying the
           selection of other-than firm-fixed-price contracts, and contracting officers did not
           always ensure the adequacy of the contractors’ accounting systems. Also, DHS did
           not always nominate and designate properly certified and trained CORs to manage
           and oversee other than firm-fixed-price contracts. As a result, DHS risks awarding
           contracts that are wasteful or otherwise not well designed to serve the Federal
           Government's needs, paying for unallowable costs, and not being able to
           manage the risk associated with the goods and services being procured.

           Recommendations

           We recommend that the Chief Procurement Officer:

           Recommendation #1:

           Updates Department of Homeland Security acquisition policies to comply with all
           Federal Acquisition Regulation Case 2008-030 requirements for proper use and
           management of other-than-firm-fixed-price contracts, ensuring Department of
           Homeland Security policy:




www.oig.dhs.gov                                 13                                       OIG-12-133
                                OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security


                  •	 Requires that acquisition plans for all other than firm-fixed-price
                     contracts contain all required information to support the selection of
                     contract type;
                  •	 Describes the type of documentation to be included as part of the
                     Contracting Officer Representative nomination package and requires that
                     it is included in the contract file to demonstrate nomination by the
                     requirements official; and
                  •	 Requires that Contracting Officer Representatives are designated and
                     authorized in writing prior to contract award for all other-than-firm-fixed­
                     price contracts and orders.

           Recommendation #2:

           Reaffirm guidance (e.g. Homeland Security Acquisition Manual and Acquisition
           Workforce Policies) to ensure acquisition personnel understand how the Federal
           Acquisition Regulation Case 2008-030 requirements affect existing and future
           contracts and orders. In doing so, ensure to communicate the following:

                  •	 Other than firm-fixed-price acquisition plans shall be approved and
                     signed at least one level above the contracting officer, and before
                     approval, these plans shall contain required information supporting the
                     selection of contract type;
                  •	 Contracting officers shall ensure that the contractor’s accounting system
                     will permit timely development of all necessary cost data in the form
                     required by the proposed contract type;
                  •	 Contracting officers shall appoint properly certified, trained, and
                     experienced Contracting Officer Representatives to support other than
                     firm-fixed-price contracts and remove those who fail to meet these
                     requirements; and
                  •	 Contracting officers shall use the Contracting Officer Representative
                     designation letter template in Appendix W of the Homeland Security
                     Acquisition Manual to ensure compliance with the FAR Case
                     requirements.

           Management Comments and OIG Analysis

           DHS provided formal comments to our report. DHS also provided technical
           comments which were incorporated in the final report where appropriate. DHS
           concurred with both of our recommendations. Appendix B includes a copy of
           the management comments in their entirety. Our evaluation of DHS’ response to
           the draft report follows.


www.oig.dhs.gov                                   14	                                     OIG-12-133
                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security



           Management Response to Recommendation #1: The CPO concurs with this
           recommendation and is developing updated policy and guidance to require that
           acquisition plans for other than firm-fixed-price contracts properly address
           contract type selection. Additionally, DHS will issue Homeland Security
           Acquisition Manual and Contracting Officer Representative Guidebook revisions
           to clarify DHS implementation of FAR Case 2008-03, Proper Use and
           Management of Cost Reimbursement Contracts, changes to reinforce statutory,
           regulatory, and policy requirements.

           OIG Analysis: We consider this recommendation resolved because steps are
           being taken to implement it. However, it will remain open until DHS provides
           documentation to support that the planned corrective actions are completed.

           Management Response to Recommendation #2: The CPO concurs with this
           recommendation and states that it: 1) updated Acquisition Workforce policy, 2)
           will update the Homeland Security Acquisition Manual and Contracting Officer
           Representative Guidebook policy, and 3) has issued policy reminders and e-mail
           notices to DHS acquisition personnel reaffirming guidance to ensure that
           acquisition personnel understand how the FAR Case 2008-030 requirements
           affect existing and future contract orders.

           OIG Analysis: We consider this recommendation resolved because steps are
           being taken to implement it. However, it will remain open until DHS provides
           documentation to support that the planned corrective actions are completed.




www.oig.dhs.gov                              15                                     OIG-12-133
                            OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


   Appendix A
   Objectives, Scope, and Methodology
   The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
   established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment
   to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
   special reports prepared as part of our oversight responsibilities to promote economy,
   efficiency, and effectiveness within the Department.

   This report provides the results of our work to determine whether DHS complied with
   revisions to the FAR on the use of cost-reimbursement contracts, as prescribed in the
   FAR Case 2008-030. To accomplish our objective, we reviewed applicable Federal laws,
   regulations, and sections of the FAR revised by FAR Case 2008-030, to identify
   requirements for the use and management of other-than-firm-fixed-price contracts.

   To gain an understanding of internal controls significant within the context of the audit
   objective and to determine compliance with the FAR Case 2008-030, we evaluated
   Department and component-specific procurement policies and procedures. We also
   interviewed representatives from the Department’s Office of the Chief Procurement
   Officer and Components (i.e. Federal Emergency Management Agency, U.S. Coast
   Guard, Office of Procurement Operations, Immigration and Customs Enforcement, U.S.
   Customs and Border Protection, Citizenship and Immigration Services, and the
   Transportation Security Administration) to obtain an understanding of their processes
   and internal controls to ensure compliance with the new FAR changes.

   We judgmentally selected a sample of 59 DHS contracts solicited and awarded between
   the dates of March 17, 2011 to March 16, 2012, to determine whether contract-type
   and Contracting Officer Representative documentation complied with requirements
   promulgated by FAR Case 2008-030. The sampled contracts were of the following types:

       •	 Cost-Reimbursement - used only when circumstances do not allow the agency to
          define its requirements sufficiently to allow for a fixed-price type contract or
          uncertainties involved in contract performance do not permit costs to be
          estimated with sufficient accuracy to use any type of fixed-price contract. In this
          type of contract, the Government assumes the inherent risks, which are
          uncertain and speculative labor hours, labor mix, and/or material requirements.
       •	 Time-and-Materials - provide for acquiring supplies or services on the basis of (1)
          direct labor hours at specified fixed hourly rates that include wages, overhead,
          general and administrative expenses, and profit; and (2) actual cost for materials.



www.oig.dhs.gov                                16	                                     OIG-12-133
                               OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security

       •	 Labor-Hours - are a variation of the time-and-materials contract, differing only in
           that materials are not supplied by the contractor.
       •	 Indefinite-delivery - used to acquire supplies and/or services when the exact
           times and/or exact quantities of future deliveries are not known at the time of
           contract award. There are three types of indefinite-delivery contracts: definite-
           quantity, requirements, and indefinite-quantity.

   Our sample covered six procurement offices within DHS: Federal Emergency
   Management Agency, U.S. Coast Guard, Office of Procurement Operations, Immigration
   and Customs Enforcement, U.S. Customs and Border Protection, and the Transportation
   Security Administration; we did not review classified contracts. We selected contracts
   with a total base and all options dollar value equal to or greater than $750,000, with the
   exception of Office of Procurement Operations’ contracts whose dollar value was equal
   to or greater than $1 million. The 59 contracts totaled approximately $1.5 billion in
   total base and all options value. We determined whether contract documentation
   complied with the following guidance promulgated under the FAR Case 2008-030:

        FAR                                              Requirement
     Reference
   1.602-2(d) and    Written evidence the contracting officer has designated and authorized a
   7.104(e)          contracting officer’s representative (COR) on all contracts and orders that are
                     other than firm-fixed-price. The contracting officer shall verify the COR or COTR is
                     a Government employee, qualified by training and experience in accordance with
                     department/agency guidelines, and certified in accordance with the Office of
                     Management and Budget memorandum. Additionally, the contracting officer will
                     ensure the COR or COTR has been delegated the appropriate responsibility and will
                     identify any limitations on the authority of the COR/COTR;
   1.604*            COR needs to maintain a file for each assigned contract. A COR may not be
   1.602-2(d)(4)*    delegated functions that have been delegated to a contract administration office.
   7.103(d), (e),    Review of policy prescribed by the agency head or its designee to ensure
   (f) and (j)       compliance with 7.103(d), (e), (f), and (j). Evidence that acquisition planners
   7.105(b)(3)       documented the files to support the selection of the contract type in accordance
                     with the following paragraph from Subpart 16.1: the statement of work is closely
                     aligned with the performance outcomes and cost estimates; a written plan was
                     prepared for other than firm-fixed-price contracts; established criteria and
                     thresholds on the level of detail for written acquisition plans; acquisition plans
                     comply with FAR 7.104 and Part 16; and acquisition plans for other-than-firm­
                     fixed-price contracts are reviewed and approved at least one level above the
                     contracting officer.
   7.105(b)(5)(iv)   Documentation of the strategy to transition from other-than-firm-fixed-price
                     contracts to firm-fixed-price contracts.
   16.103(d)         Additional documentation when other than a firm-fixed-price contract type is
                     selected.


www.oig.dhs.gov                                    17	                                        OIG-12-133
                                OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security

   16.104            Contracting Officer’s consideration of combining contract types if the entire
                     contract cannot be firm-fixed-price.
   16.301-2          Circumstances in which to use cost-reimbursement and the documented rationale
                     for selecting an other than firm-fixed-price contract type.
   16.301-3          When a cost-reimbursement contract may be used, documentation that the
   16.104 (i)        contracting officer considered all factors per FAR 16.104, including the adequacy of
   42.302(a)(12)     the contractor’s accounting system; and documentation that the contracting
                     officer has ensured that adequate Government resources are available to award
                     and manage other than firm-fixed-price contract awards.
   Source: FAR *We did not verify compliance with FAR 1.604 and 1.602-2(d)(4) during this review.

   We conducted this performance audit between April and July 2012, pursuant to the
   Inspector General Act of 1978, as amended, and according to generally accepted
   government auditing standards. Those standards require that we plan and perform the
   audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
   findings and conclusions based upon our audit objectives. We believe that the evidence
   obtained provides a reasonable basis for our findings and conclusions based upon our
   audit objectives.




www.oig.dhs.gov                                      18                                             OIG-12-133
                                       OFFICE OF INSPECTOR GENERAL
                                              Department of Homeland Security


   Appendix B
   Management Comments to the Draft Report



                                                                                       u .s. Dql.rtmcnl of 1I0mt lu ci S«lIrll y
                                                                                       Wl5hin&1On, DC 20S28



                                                                                        Homeland
                                                                                        Security
                                                        September 26, 2012


                  MEMORANDUM FOR:               Anne L. Richards
                                                Assistant Inspector General for Audits


                  FROM :
                                                ~;~;~;;;;~~:~~I~~
                  SUBJECT:                      Draft 0 10 R eport : "Department of'Homcland Security
                                                Compliance with the FedcraJ Acquisi tion Regulation Revisions on
                                                Proper Use of Cost-Reimbursement Contracts" (Projoct No. 12-
                                                135-AUD-DHS)

                  Thank you for the opportunity to review and comment on this draft report. The U.S. Department
                  of Homeland Security (DHS) appreciates the Office of Inspector GenCl"RI's (OIO's) work in
                  cond ucting its review and issuing this rcpart.

                  'I11e draft report contained two recommendations with which the Department concurs.
                  Specifically. the 010 recommended that the DHS ChierProcurement OffiCl.-,( (CPO):

                  Rccommcndlltion 1: Update Department ofHomciand Security acqui sition policies to comply
                  with all Federal Acquisition Regulation Case 2OQ8..()30 requifl...'I1lt!nts for proper usc and
                  management ofother-than-liml-fixed-price contracts, ensuring Department of Homel and
                  Security policy:

                     •   Requires that acquis ition plans ror uU othcr-than-finn-fixoo-price contracts contain all
                         required infonnation to support thc selection of contract type;

                     •   Describes the type of doc umentation to be included as part of the Contmcting Officer
                         Representati ve nomina tion package and requires that it is included in the contract file to
                         demonstrate nomination by the requirements o ffici al; and

                     •   Requires that Contracting Officer Reprcsenlativcs arc designated and authorized in
                         writi ng prior to contract award for all other-than-finn·fixed·pricc contracts lind orders.

                  Response: Concur. The CPO agrees that updrued policy and guidance arc necessary to ensure
                  compliance with Federal Acquisition Regulation (FAR) requirements for proper use of a nd
                  management of othcr-tha n-firm-fixcd-pricc contracts. O n August 15, 20 12, the CPO




www.oig.dhs.gov                                                     19                                                             OIG-12-133
                                       OFFICE OF INSPECTOR GENERAL
                                              Department of Homeland Security




                  Acquisition, Policy and Legislation (APL) Division issued updated pol icy and guidance to
                  require that acquisition plans for othcr~ than-finn~fixed- price contracts properly address contract
                  type selection.

                  Additionally, APL will issue Homeland Security Acquisition Manual (HSAM) and Contraf..iing
                  Officer Representative (COR) Guidebook revisions to clarify DHS impleml.'l1tation of FAR Case
                  2008-03, Proper Use and Management of Cost Reimbursement Contracts, changes to reinforce
                  statutory, regulatory, and policy requirements. Changes will include:

                     •   Clarifying the procurement request requirements in HSAM 3004 to include the COR
                         nomination package, and describing the contents of the package;

                     •   Changing the requirement in HSAM 3007 and associated Acquisition Planning Guide to
                         require FAR compliant Acquisition Plans for all non-firm-fixed-price contracL~ above thc
                         simplified acquisition threshold;

                     •   Removing all references in the HSAl\1 and other policy documents to the Acquisition
                         Planning Forecast System as a complete substitute for a FAR compliant Acquisition Plan
                         for all non-firm-fixed-price contracts above the simplified acquisition threshold; and

                     •   Adding additional information in HSAM 4042 and Appendix W to ensure that CORs are
                         appointed prior to contract award, thot the Contracting Officer receive a full COR
                         nomination package and the Contracting Officer's appointment of the COR includes the
                         certification level and an explanation of why that certification level is necessary tor the
                         tasks to be performed during contract administration. Estimated Completion Date
                         (EeD): October 31, 2012.
                  Recommend ation 2: Reaffinn guidance (e.g., Homeland Security Acquisition MlUlual and
                  Acquisition Workforce Policies) to ensure acquisition pl.'TSonncl understand how the Federal
                  Acquisition RcguJation Case 2008~030 requiremcnts affect existing and future contracts and
                  ordcrs. In doing so, ensure to communicate the following:

                     •   Oth er~than- firm -fixcd - pri cc contract acquisition plans shall be approved and signed at
                         least one level above the Contracting Officer and before approval, these plans shall
                         contain required information supporting the selection of contract type;

                         Contracting Officers shall ensure that the contractor's accounting system will permit
                         timcly development of all noccssary cost data in the form required by thc proposed
                         contract type;

                     •   Contracting Officers shall appoint properly cl.Ttificd, trained, and experienced
                         Contracting Officer Representatives to support other-than~firrn-fixed-price contracts and
                         remove those who fail to meet these requirements; and

                     •   Contracting Officers shall use the Contracting Officer Representative designation letter
                         template in Appendix W of the Homeland Security Acquisition Manual to ensure
                         compliance with the FAR Case requirements.


                                                                                                                         2




www.oig.dhs.gov                                                    20                                                        OIG-12-133
                                     OFFICE OF INSPECTOR GENERAL
                                           Department of Homeland Security




                  Response: Concur. The CPO agrees that DBS needs to reaffirm guidancc to cnsure thaI
                  acquisition personnel undersland how the FAR Casc 2008-03 requirements affect ex.isting and
                  future contract orders.

                  APL issued Regulatory Reminder 12-02 ''Planning and Approving Non-Fixed Priced Actions"
                  on August 15, 2012. This reminder listed each important FAR change incorporated by FAR
                  Case 2008-030 and gave instructions on what was necessary for Contracting Officers to comply
                  with each of these new policies. This regulatory reminder was designed to make required FAR
                  compliance easier and simplify the means of compliance, all with a goal of ensuring that
                  Contracting Officers and Components comply with the statutory, regulatory, and policy
                  requirements of the new FAR policies.

                  CPO's Acquisition Workforce division issued an e-mail notice, entitled \leOR Appointment
                  Requirements and Revised Policy" on August 10,2012, reminding contract specialists and
                  Contracting Officer to adhere to the COR certification requirements outlined in September 2011
                  Office of Federal Procurement Policy guidance.

                  Concurrent with the rt.1l1indcr e-mail, Acquisition Workforce also updated and published the
                  revised COR certification policy, (:ntitled "DHS Fedeml Acquisition Certification for
                  Contracting Officer's Representatives Policy." The revised policy clarifies that for othcr-than-
                  firm-fIxed-price contracts, Contracting Officers must appoint a Level III certified COR.

                  Additionall y, as stated under Recommendation 1, APL will issue HSAM and COR Guidebook
                  revisions to clarify DHS implementation of FAR Case 2008-03, Proper Use and Management of
                  Cost Reimbursclnl;:ut Cuutrnct:s ciHUlges to reinforce statutory, regulatory, and policy
                  requirements. One of the changes to the Guidebook will be an update to Appendix W to ensure
                  compliance with the FAR case requirements. ECO: October 31,2012.

                  Again, thank you for the opporrunity to review and comment on this draft report. Technical
                  comments were submitted previously under separate cover. Please feci free to contact me if you
                  have any questions. We look forwurd to working with you in tbe future.




                                                                                                                     3




www.oig.dhs.gov                                                21                                                        OIG-12-133
                          OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security


   Appendix C
   Major Contributors to This Report
   Donald Bumgardner, Director
   Yeseira Diaz, Audit Manager
   Gloria Medina-Ortiz, Auditor
   Apostolos Exarchos, Program Analyst
   Victor Leung, Program Analyst
   Enrique Leal, Auditor
   Kevin Dolloson, Communications Analyst
   Ignacio Yanes, Independent Referencer




www.oig.dhs.gov                             22                  OIG-12-133
                          OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security


   Appendix D
   Report Distribution
   Department of Homeland Security

   Secretary
   Deputy Secretary
   Chief of Staff
   Deputy Chief of Staff
   General Counsel
   Executive Secretary
   Director, GAO/OIG Liaison Office
   Assistant Secretary for Office of Policy
   Assistant Secretary for Office of Public Affairs
   Assistant Secretary for Office of Legislative Affairs
   Acting Chief Privacy Officer
   Undersecretary for Management
   Chief Procurement Officer
   DHS Component Liaison, U.S. Coast Guard
   DHS Component Liaison, Federal Emergency Management
   DHS Component Liaison, Immigration and Customs Enforcement
   DHS Component Liaison, Transportation Security Administration
   DHS Component Liaison, Customs and Border Protection
   DHS Component Liaison, Office of Procurement Operations
   DHS Component Liaison, Citizen and Immigration Services

   Office of Management and Budget

   Chief, Homeland Security Branch
   DHS OIG Budget Examiner

   Congress

   Congressional Oversight and Appropriations Committees, as appropriate




www.oig.dhs.gov                            23                              OIG-12-133
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to: DHS Office of Inspector General, Attention: Office of Investigations Hotline, 245
Murray Drive, SW, Building 410/Mail Stop 2600, Washington, DC, 20528; or you may
call 1 (800) 323-8603; or fax it directly to us at (202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
